Office of Material Loss Reviews
Report No. MLR-10-020


Material Loss Review of the Six Bank
Subsidiaries of Security Bank Corporation,
Macon, Georgia




                                  February 2010
                                    Executive Summary
                                    Material Loss Review of the Six Bank
                                    Subsidiaries of Security Bank Corporation,
                                    Macon, Georgia
                                                                                Report No. MLR-10-020
                                                                                        February 2010

Why We Did The Audit

On July 24, 2009, the Georgia Department of Banking and Finance (DBF) closed the six bank
subsidiaries (Security Banks) of Security Bank Corporation (SBC), Macon, Georgia and named the
FDIC as receiver. On August 12, 2009, the FDIC notified the Office of Inspector General (OIG) of
the estimated losses that each of the Security Banks had caused to the Deposit Insurance Fund (DIF).
The total assets at closing for the Security Banks were $2.4 billion and the estimated losses to the
DIF were approximately $807 million. As required by section 38(k) of the Federal Deposit
Insurance (FDI) Act, the OIG conducted a material loss review of the failures.

The audit objectives were to (1) determine the causes of the Security Banks’ failures and the
resulting material losses to the DIF and (2) evaluate the FDIC’s supervision of the Security Banks,
including implementation of the Prompt Corrective Action (PCA) provisions of section 38.


Background

The Security Banks were state nonmember banks wholly-owned by SBC, a six-bank holding
company headquartered in Macon, Georgia that was initially established in September 1994 as a one
bank-holding company. SBC expanded its presence in Georgia through a number of acquisitions
between 1994 and 2006, eventually providing community banking services in the central, coastal,
and north Georgia markets through its six subsidiary banks. The six banks operated autonomously,
each with its own Board and management team. SBC provided oversight and assistance in areas of
budgeting, marketing, human resource management, credit administration, operations, and funding.
The banks provided traditional banking services within their local markets and focused on
Commercial Real Estate (CRE) lending with an emphasis on Acquisition, Development, and
Construction (ADC) lending. Since 2005, much of the banks’ loan growth was generated by the
parent bank’s subsidiary, Security Real Estate Services (SRES). SRES-originated loans were
purchased by all but one of the Security Banks as well as other banks in Georgia. Although each of
the Security Banks was independently chartered with separate Boards, SBC significantly influenced
the business strategies of the banks, particularly with regard to the purchase of ADC loans from
SRES. The Security Banks are considered affiliates based on section 23A of the Federal Reserve
Act, made applicable to insured nonmember banks by section 18(j) of the FDI Act, which establishes
certain requirements, restrictions, and prohibitions with regard to transactions among the banks.


Audit Results

Causes of Failures and Material Losses

The failures of the Security Banks can be attributed to the strategy promoted by SBC and followed
by each of the banks’ Boards and management, which centered on growing their ADC loan
portfolios. Further, SBC’s expansion into the Atlanta metropolitan market was ill-timed, as it


                                To view the full report, go to www.fdicig.gov
                                     Material Loss Review of the Six Bank
    Executive Summary
                                     Subsidiaries of Security Bank Corporation,
                                     Macon, Georgia
                                                                                    Report No. MLR-10-020
                                                                                            February 2010

occurred at the peak of that market. Although initially profitable, the banks’ pursuit of growth and
increased ADC concentrations, without regard for prudent underwriting and credit administration,
made the banks vulnerable to depressed economic conditions. As economic conditions, particularly
in housing markets, began to deteriorate in 2007, the weaknesses in the Security Banks’ management
and Board oversight and loan underwriting and credit administration practices were exposed, and the
performance of the banks’ ADC portfolios began to deteriorate. Asset quality became critically
deficient and earnings were insufficient to support operations and maintain adequate capital. In
addition, the banks relied on non-core funding sources, including brokered deposits, to fund growth.
As the banks’ capital levels declined as a result of the mounting loan losses, the banks could no
longer rely on those funding sources and liquidity became strained. Collectively, these factors led to
the DBF’s closure of the banks.

The FDIC’s Supervision of the Security Banks

Recognizing that each bank’s supervisory history is unique, our conclusion regarding the FDIC’s
supervision of these institutions is the same. The FDIC and the DBF examinations prior to 2007
identified the ADC concentrations but generally concluded that the institutions were fundamentally
sound. Further, examinations and Federal Reserve inspections of the holding company did not
identify any significant concerns related to affiliate transactions. FDIC officials stated that prior to
2007, concerns regarding the Security Banks’ high concentrations in ADC loans were mitigated by
the banks’ respective strong earnings and low levels of adversely classified assets. Examiners,
nevertheless, cautioned the Boards and management of the Security Banks to be mindful of the
inherent risks of the high ADC concentrations. In hindsight, examiners could have been more
emphatic in advising the banks’ Boards and management to maintain strong risk management
practices before 2007—prior to the economic downturn—taking into consideration the following
factors:

•   the vulnerability of significant ADC concentrations to economic cycles,
•   the importance of strong underwriting and credit administration practices in order to mitigate the
    risk associated with the significant concentrations, and
•   growth that was being fueled by non-core funding sources.

Once problems were identified, the FDIC and the DBF pursued supervisory actions. However, by
the time those actions became effective, the financial condition of the banks had become critically
deficient.

With respect to PCA, based on the supervisory actions taken, the FDIC properly implemented
applicable PCA provisions of section 38 in a timely manner. SBC and the Security Banks were
unsuccessful in raising needed capital and the banks were subsequently closed on July 24, 2009.




                                 To view the full report, go to www.fdicig.gov
                                   Material Loss Review of the Six Bank
   Executive Summary
                                   Subsidiaries of Security Bank Corporation,
                                   Macon, Georgia
                                                                                Report No. MLR-10-020
                                                                                        February 2010



Management Response

On February 12, 2010, the Director, Division of Supervision and Consumer Protection, provided a
written response to the draft report. DSC’s response reiterates the OIG’s conclusions regarding the
causes of failures and describes market conditions prior to the economic downturn that led Atlanta-
area financial institutions to increase ADC lending to unprecedented levels and encouraged out-of-
area institutions to begin lending in the marketplace.

With respect to our assessment of the FDIC’s supervision of the Security Banks, DSC’s response
also reiterated the supervisory actions taken with regard to the ADC concentrations presented in the
report, including examiners encouraging the banks to implement stronger risk management practices.
The response indicates, however, that in DSC’s view, the extent of the ADC concentration at the
Security Banks, together with the sudden collapse of demand for vacant building lots, resulted in a
situation that could not have been overcome by even the strongest risk management practices.

Finally, DSC’s response describes supervisory guidance issued in 2006 and 2008 that re-emphasizes
the importance of robust credit risk-management practices and sets broad supervisory expectations,
in recognition that strong supervisory attention is necessary for institutions with high CRE/ADC
concentrations and volatile funding sources.




                               To view the full report, go to www.fdicig.gov
                                Contents
                                                                         Page
Background                                                                 2

Causes of Failures and Material Losses                                     5
  Excessive Concentrations in ADC Loans                                    6
  Weak Loan Underwriting and Credit Administration                         8
  Reliance on Non-Core Funding                                            11

The FDIC’s Supervision of the Security Banks                              12
   Supervisory History                                                    13
   Examination of Transactions with Affiliates                            15
   Supervisory Concerns Related to ADC Concentrations                     16
   Supervisory Concerns Related to Loan Underwriting and                  17
    Credit Administration
   Supervisory Concerns Related to Non-Core Funding                       18
   Implementation of PCA                                                  19

Corporation Comments                                                      21

Appendices
  1. Objectives, Scope, and Methodology                                   22
  2. Glossary of Terms                                                    24
  3. Acronyms                                                             26
  4. Corporation Comments                                                 27

Tables
   1. Estimated Losses to the DIF for the Security Banks                   1
   2. Acquisition History of the Security Banks, 1988 to 2006              4
   3. Selected Financial Information for the Security Banks, 2006          5
        to 2009
   4. Security Banks’ Asset Growth Rates, 2005 and 2006                    6
   5. Loan Losses at the Security Banks from SRES-Originated Loans         9
   6. Security Banks’ Net Non-Core Funding Sources, 2006 to 2009          11
   7. Security Banks’ Net Non-Core Funding Dependence Ratio               12
        Compared to Peer Groups, 2006 to 2009
   8. Examinations and Visitations of the Security Banks, 2006 to 2009    15
   9. Security Banks’ ADC Loans to Total Capital as of                    17
        March 31, 2007
  10. Security Banks’ Capital Levels Relative to PCA Thresholds for       19
       Well Capitalized Institutions
  11. Security Banks’ Decline in Capital Levels Between 2008 and          20
        2009 in Examinations and/or Visitations
                                Contents
                                                                    Page

Figures
   1. Structure of the Security Banks Under SBC                       3
   2. Security Banks’ ADC Loans to Total Capital as of                7
        December 31, 2007
   3. Security Banks’ Adversely Classified Items Coverage Ratios,     8
        Reported in Examinations Conducted from 2006 to 2008
Federal Deposit Insurance Corporation                                              Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, VA 22226                                                 Office of Inspector General


DATE:                                     February 12, 2010

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection

                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Assistant Inspector General for Material Loss Reviews

SUBJECT:                                  Material Loss Review of the Six Bank Subsidiaries of
                                          Security Bank Corporation, Macon, Georgia (Report No.
                                          MLR-10-020)

As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the Office of
Inspector General (OIG) conducted a material loss1 review of the failures of the six bank
subsidiaries of Security Bank Corporation (SBC), Macon, Georgia, which are collectively
referred to in this report as the Security Banks. The Georgia Department of Banking and
Finance (DBF) closed the institutions on July 24, 2009, and named the FDIC as receiver.
On August 12, 2009, the FDIC notified the OIG that the total assets at closing for the
Security Banks were $2.4 billion and the estimated losses to the Deposit Insurance Fund
(DIF) were approximately $807 million. Table 1 details the estimated loss to the DIF for
each of the Security Banks.

Table 1: Estimated Losses to the DIF for the Security Banks
                                                                                                Total Estimated
                                                                                                  Losses as a
                                                                     Total Estimated           Percentage of Total
              Bank Subsidiary                    Total Assets       Losses to the DIF               Assets
    Security Bank of Bibb County                  $1,013,327,220          $429,494,000               42.3%
    (Bibb)
    Security Bank of Jones County                   $409,496,934            $59,574,000                   14.5%
    (Jones)
    Security Bank of Houston County                 $365,722,429            $54,909,000                   15.0%
    (Houston)
    Security Bank of Gwinnett County                $280,647,395           $152,742,000                   54.4%
    (Gwinnett)
    Security Bank of North Fulton                   $193,187,062            $37,684,000                   19.5%
    (N. Fulton)
    Security Bank of North Metro                    $184,900,219            $72,453,000                   39.1%
    (N. Metro)
    Total                                          $2,447,281,259          $806,856,000                  32.9%
Source: The FDIC’s Division of Finance.



1
 As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency. The report
is to consist of a review of the agency’s supervision of the institution, including the
agency’s implementation of FDI Act section 38, Prompt Corrective Action (PCA); a
determination as to why the institution’s problems resulted in a material loss to the DIF;
and recommendations to prevent future losses.

The objectives of this material loss review were to (1) determine the causes of the
Security Banks’ failures and the resulting material losses to the DIF and (2) evaluate the
FDIC’s supervision2 of the Security Banks, including the FDIC’s implementation of the
PCA provisions of section 38 of the FDI Act. This report presents our analysis of the
Security Banks’ failures and the FDIC’s efforts to ensure that the Security Banks’ Boards
of Directors (Boards) and management operated the institutions in a safe and sound
manner.

The report does not contain formal recommendations. Instead, as major causes, trends,
and common characteristics of financial institution failures are identified in our material
loss reviews, we will communicate those to management for its consideration. As
resources allow, we may also conduct more in-depth reviews of specific aspects of DSC’s
supervision program and make recommendations as warranted. Appendix 1 contains
details on our objectives, scope, and methodology. Appendix 2 contains a glossary of
terms and Appendix 3 contains a list of acronyms. Appendix 4 contains the
Corporation’s comments on this report.


Background

The Security Banks were state nonmember banks wholly-owned by SBC, a six-bank
holding company headquartered in Macon, Georgia that was initially established in
September 1994 as a one bank-holding company. SBC expanded its presence in Georgia
through a number of acquisitions between 1994 and 2006, eventually providing
community banking services in the central, coastal, and north Georgia markets through its
six subsidiary banks. The Security Banks are considered affiliates based on section 23A
of the Federal Reserve Act, made applicable to insured nonmember banks by section
18(j) of the FDI Act. As discussed later in this report, section 23A regulates loans or
extensions of credit to affiliated organizations and investments in affiliates by restricting
amounts of loans, extensions of credit, and investments, and requiring that loans or
extensions of credit meet certain collateral requirements.


2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices (including internal control systems), and compliance with applicable laws and
regulations and (2) issues related guidance to institutions and examiners.


                                                  2
At the time of failure, the Security Banks operated 20 branches located near Atlanta and
Macon, Georgia. The six banks operated autonomously, each with its own Board and
management team. Each of the banks had a reciprocal agreement with one another to
perform various services, including receiving deposits, renewing time deposits, closing
loans, servicing loans, receiving payments on loans and other obligations, and performing
other services approved by regulatory authorities. SBC provided oversight and assistance
in areas of budgeting, marketing, human resource management, credit administration,
operations, and funding. Over time, management became more centralized, and in
January 2009, SBC initiated an application to the FDIC and the DBF for approval to
consolidate the banks into a single charter. The objective of the consolidation was to
improve the credit process, reduce credit risk, and increase operational efficiency.
However, SBC withdrew the application prior to the banks’ failure. Figure 1 illustrates
the structure of the six banks under SBC, noting Bibb as the parent or lead bank.

Figure 1: Structure of the Security Banks Under SBC
                                           Security Bank Corporation
                                                     (SBC)




                      Security Bank    Security Bank        Security Bank     Security Bank    Security Bank
   Security Bank of                                                                             of Gwinnett
                       of Houston     of Jones County       of North Metro   of North Fulton
     Bibb County                                                                                  County
   (Parent or Lead       County
        Bank)




    Security Real
   Estate Services*
       (SRES)


Source: OIG
* Until 2008, SRES was known as Fairfield Financial Services, Inc.

Table 2 on the following page summarizes the history and acquisitions of the Security
Banks by SBC.




                                                        3
Table 2: Acquisition History of the Security Banks, 1988 to 2006
      Date                                             Bank
      1988      Bibb commences operations as Security National Bank.
      1994      Bibb forms SNB Bankshares, Inc. (the predecessor of SBC), a one-bank holding
                company.
      1998      SBC acquires Houston.
      2000      SBC acquires Fairfield Financial Services (hereafter referred to as SRES), a
                financial services company specializing in residential mortgage originations.
      2003      SBC acquires Jones.
      2005      SBC acquires N. Metro.
    2005/2006   SBC acquires Rivoli Bancorp, Inc. and merges its subsidiary bank, Rivoli Bank &
                Trust, into Bibb.
      2006      SBC acquires N. Fulton.
      2006      SBC acquires Gwinnett.
Source: Supervisory documents for the Security Banks.

The banks provided traditional banking services within their local markets and focused
on commercial real estate (CRE) lending with an emphasis on acquisition, development,
and construction (ADC)3 lending. Since 2004, except for Gwinnett, which did not
purchase loans from SRES, much of the banks’ loan growth was generated by SRES. As
noted in Table 2, SRES originally specialized in residential mortgage originations but in
2004 transitioned to ADC lending primarily in Georgia and Florida. Eventually, SRES
began generating loans outside of the banks’ traditional lending areas, including South
Carolina, North Carolina, and Alabama. SRES-originated loans were purchased by the
Security Banks as well as other banks in Georgia. Although each of the Security Banks
was independently chartered with separate Boards, SBC’s Board influenced the business
strategies of the Security Banks, particularly with regard to the purchase of ADC loans
from SRES. Table 3 on the following page summarizes selected financial information for
the Security Banks.




3
 ADC lending involves loans on construction and development projects which may often be speculative
because the loan repayment is based on the successful completion and leasing or sale of the construction
project.


                                                     4
Table 3: Selected Financial Information for the Security Banks, 2006 to 2009
Financial Measure           Bank            06/30/2009       12/31/2008      12/31/2007       12/31/2006
                             Bibb                943,744        1,231,751       1,289,830        1,089,742
                           Houston               371,624          383,678         336,807          304,053
    Total Assets            Jones                432,712          442,269         378,848          344,479
      ($000s)              Gwinnett              259,182          346,763         403,656          345,392
                           N. Metro              184,184          237,526         221,709          221,349
                           N. Fulton             190,564          200,685         191,378          190,177
                             Bibb                784,518          945,429          995,384          869,782
                           Houston               206,257          231,051          255,994          229,600
    Total Loans             Jones                277,787          283,427          287,979          230,621
      ($000s)              Gwinnett              178,963          226,576          314,490          272,089
                           N. Metro              151,266          161,553          172,889          164,042
                           N. Fulton             109,857          125,606          139,989          134,966
                             Bibb                831,437        1,038,170        1,060,012          856,346
                           Houston               313,155          316,363          300,413          267,161
                            Jones                375,238          378,294          306,087          263,243
   Total Deposits          Gwinnett              256,578          310,767          312,040          263,703
      ($000s)              N. Metro              182,413          219,722          175,942          183,440
                           N. Fulton             179,523          180,086          148,206          151,320
                             Bibb                300,514          403,404          389,391          211,576
                           Houston                28,603           27,770           31,959           32,030
  Total Brokered            Jones                120,716          112,978           82,183           54,116
     Deposits
      ($000s)              Gwinnett               90,650          118,383           77,020           29,202
                           N. Metro               64,627           95,068           78,021           60,241
                           N. Fulton              36,412           40,574           19,454           29,073
                             Bibb                (37,634)        (103,943)            2,317          14,601
                           Houston                (5,227)          (2,538)            2,798           4,267
 Net Income (Loss)          Jones                 (7,042)         (21,508)            5,101           4,416
      ($000s)              Gwinnett              (33,189)         (57,028)            2,483           1,780
                           N. Metro              (15,179)         (28,242)          (1,282)           2,128
                           N. Fulton              (7,523)         (29,526)              503           1,429
Source: Uniform Bank Performance Reports (UBPR) and Reports of Examination (ROE) for the Security
Banks.


SBC was historically a source of strength to each of the banks. During 2008, as the
financial conditions of each of the banks deteriorated, SBC raised a significant amount of
capital to address the economic uncertainty facing the organization and distributed the
funds to the banks to help maintain capital levels. However, as conditions worsened,
SBC was unable to raise sufficient capital to keep the banks viable.


Causes of Failures and Material Losses

The failures of the Security Banks can be attributed to the strategy promoted by SBC and
followed by each of the banks’ Boards and management, which centered on growing their
ADC loan portfolios. Further, SBC’s expansion into the Atlanta metropolitan market was


                                                 5
ill-timed, as it occurred at the peak of that market. Although initially profitable, the
banks’ pursuit of growth and increased ADC concentrations, without regard for prudent
underwriting and credit administration, made the banks vulnerable to depressed economic
conditions. As economic conditions, particularly in housing markets, began to deteriorate
in 2007, the weaknesses in the Security Banks’ management and Board oversight and
loan underwriting and credit administration practices were exposed, and the performance
of the banks’ ADC portfolios began to deteriorate. Asset quality became critically
deficient and earnings were insufficient to support operations and maintain adequate
capital. In addition, the banks relied on non-core funding sources, including brokered
deposits, to fund growth. As the banks’ capital levels declined as a result of the mounting
loan losses, the banks could no longer rely on those funding sources and liquidity became
strained. Collectively, these factors led to the DBF’s closure of the banks.

Excessive Concentrations in ADC Loans

SBC pursued a strategy of growth in 2005 and 2006, acquiring Gwinnett, N. Metro, and
N. Fulton, to expand its organization outside of middle Georgia into the developing
Atlanta metropolitan real estate market. Although unknown at the time, FDIC officials
stated SBC expansion into the Atlanta metropolitan area occurred as growth in the area
was peaking.

Table 4 summarizes the asset growth at the Security Banks during this period,
particularly among the three banks in the Atlanta metropolitan area, with much of this
growth concentrated in ADC loans. From the time of their acquisition by SBC, all of the
Security Banks maintained high ADC lending concentrations.

Table 4: Security Banks’ Asset Growth Rates, 2005 and 2006
   Year           Bibb         Jones     Houston      Gwinnett      N. Metro      N. Fulton
2005             18.11%         8.52%     23.33%       85.68%        62.00%        102.11%
2006             57.63%        20.53%     15.49%       54.36%        20.09%        65.74%
Source: UBPRs for Security Banks.

Gwinnett had a large volume of ADC loans in its portfolio when it was acquired by SBC
in 2006. The other banks’ growth was fueled in large part by loans purchased from
SRES. The banks purchased loans from SRES to meet ADC lending targets directed by
SBC, as well as to remain within regulatory lending limits. Loans purchased from SRES
during 2005 and 2006, as well as an increase in ADC loans originated by the banks
themselves, increased each of the banks’ ADC loan concentrations. Initially, SBC’s
overarching growth strategy centered on ADC lending was profitable because the real
estate market was strong. As of December 31, 2007, four of the banks had concentrations
in ADC lending over 400 percent of Total Capital.

Federal banking regulatory agencies issued guidance on Concentrations in Commercial
Real Estate Lending, Sound Risk Management Practices (Interagency Guidance) on
December 12, 2006 to remind institutions that strong risk management practices and
appropriate levels of capital are essential elements of a sound CRE lending program,
particularly when an institution has a concentration in CRE loans. The Interagency
Guidance focuses on those CRE loans for which cash flow from the real estate is the


                                            6
primary source of repayment (i.e., ADC lending). The Interagency Guidance does not
define specific CRE lending limits but establishes supervisory criteria to identify
institutions that are exposed to significant CRE concentration risk that may warrant
greater supervisory scrutiny as follows:

    1. Total reported loans for construction, land development, and other land (i.e.,
       ADC) representing 100 percent or more of total capital; or
    2. Total CRE loans representing 300 percent or more of total capital where the
       outstanding balance of CRE has increased by 50 percent or more during the prior
       36 months.

As shown in Figure 2, as of December 31, 2007, each of the Security Banks had ADC
concentrations well beyond the levels defined in the 2006 guidance.

Figure 2: Security Banks’ ADC Loans to Total Capital as of December 31, 2007

                                                                                   Bibb


                                                                                                   Gwinnett


                                                                         Houston
   Bank




                                                          Jones


                                                       N. Fulton


                                                                                      N. Metro


          0             100           200           300            400          500          600   700        800
                                                             Percentage
              Level under which concentration does not warrant greater supervisory concern

 Source: December 31, 2007 UBPRs for Security Banks.

Each of the examinations at the Security Banks conducted after January 1, 2008 found
that the bank’s asset quality had significantly deteriorated from the previous
examinations. The 2008 examinations concluded that the asset quality deterioration was
centered in the excessive concentrations in ADC lending adversely affected by the
downturn in the real estate markets in the banks’ lending areas. Figure 3 shows the
increase in adversely classified loans to Tier 1 Capital (Adversely Classified Items
Coverage Ratio) from 2006 to 2008. This ratio is a measure of the level of asset risk and
the ability of capital to protect against that risk. A lower ratio is desirable because a
higher ratio indicates exposure to poor-quality assets and less ability for the bank’s
capital to absorb any losses associated with those assets.



                                                                   7
Figure 3: Security Banks’ Adversely Classified Items Coverage Ratios, Reported
          in Examinations Conducted from 2006 to 2008

                                N. Metro 11/06
                                                                                            N. Metro 12/08
                 N. Fulton 08/06
                                   N. Fulton 03/08
                    Jones 01/06
                    Jones 06/07
     Bank/
                           Houston 05/06
     ROE
     Date                            Houston 11/07
                                                      Houston 10/08
                        Gwinnett 12/06
                                                                                                     Gwinnett 06/08
                         Bibb 03/06
                         Bibb 03/07
                                                      Bibb 03/08

             0             50            100          150          200        250           300       350        400

                                               Adversely Classified Items Coverage Ratios

    Source: OIG analysis of the ROEs of the Security Banks.



Weak Loan Underwriting and Credit Administration

According to the Interagency Guidance, concentrations in CRE lending, coupled with
weak loan underwriting and depressed CRE markets, contributed to significant credit
losses in the past. The Interagency Guidance reinforced and enhanced existing
regulations and guidelines and promotes sound risk management practices and
appropriate levels of capital to enable institutions to pursue CRE lending in a safe and
sound manner. For instance, earlier guidance on ADC lending4 emphasized that
management’s ability to identify, measure, monitor, and control portfolio risk through
effective underwriting policies, systems, and internal controls was crucial to a sound
ADC lending program. Counter to regulatory guidance and fundamental sound business
practices, the banks’ Boards and management focused on growth and income and failed
to implement adequate risk management practices, including loan underwriting and credit
administration controls, which ultimately led to significant asset quality problems.




4
 Inactive Financial Institution Letter (FIL) 110-98, Internal and Regulatory Guidelines for Managing Risks
Associated with Acquisition, Development and Construction Lending, dated October 8, 1998.


                                                             8
Loan Underwriting

Loan underwriting weaknesses were identified in each of the 2008 Security Bank
examinations reports but generally had not been identified as a significant concern in
prior examinations. FDIC officials told us that the Security Banks may have relaxed
their underwriting standards due to the competition among banks, particularly in the
Atlanta market, to obtain deposits, fund loans, and develop business relations. Although
the degree of weaknesses reported varied among the Security Banks, examination
comments indicated that underwriting practices:

    •   Allowed high residential speculative construction loan limits and high loan-to-
        value (LTV) financing on lot development. In several cases, examiners
        concluded that these practices were in contravention of the Interagency Guidance.

    •   Lacked adequate global cash flow analysis. Examination reports for three of the
        six Security Banks (Bibb, Jones, and Gwinnett) commented that the banks did not
        conduct adequate global cash flow analysis on the borrowers prior to extending
        credit. Information such as comparative financial statements, income statements,
        cash flow statements, and other pertinent statistical support, including the
        borrowers’ list of contingent liabilities, was not properly obtained.

Underwriting deficiencies in SRES-originated loans were cited as a primary cause of the
asset quality deterioration at the Security Banks. Both FDIC and DBF regulators told us
that one of the first warning signs of potential deterioration at the Security Banks was the
loan problems identified in participations from SRES found during examinations at other
non-affiliated banks in Georgia. SRES-originated loans proved to be a significant cause
of loan losses for the Security Banks, as shown in Table 5. The exception was Gwinnett,
where unlike the other Security Banks, the majority of its problem loans were generated
internally.

Table 5: Loan Losses at the Security Banks from SRES-Originated Loans
       Bank               Bibb       Houston         Jones         N. Metro      N. Fulton
SRES-Originated
Loan Losses from        91 Percent   67 Percent     73 Percent    77 Percent     36 Percent
2006 to 2009
Source: DSC Supervisory Histories.

Problems with SRES loan underwriting were first reported in the November 2007
Houston examination when examiners reported that loans originated by SRES made up
approximately 50 percent of adversely classified items. The examination report noted
that SRES utilized a loosely controlled, fee-based compensation structure that
emphasized fee generation at the expense of credit quality. Also, SRES-originated loans
throughout Georgia, Florida, South Carolina, North Carolina, and Alabama. In addition
to the poor underwriting by SRES, the geographic dispersion of these credits, outside the
bank’s traditional lending area, was difficult for the bank to monitor and presented
heightened risk due to the type of ADC projects being pursued.




                                              9
According to the DSC Risk Management Manual of Examination Policies, institutions
purchasing participations must make a thorough, independent evaluation of the
transaction and risks involved before committing any funds. Institutions should also
apply the same standard of prudence, credit assessment, approval criteria, and “in-house”
limits that would be employed if the purchasing organization were originating the loan.
However, it is apparent, based on examiners’ comments on the lack of adequate
underwriting identified in SRES-originated loans, that the Security Banks did not conduct
this type of evaluation.

Similar comments were also reported in the March 2008 Bibb examination. Specifically,
examiner concern with Bibb’s asset quality was due to approximately 87 percent of its
adversely classified loans having been originated by SRES. The examination report also
noted that SRES was not properly controlled internally and that its lenders produced a
significant number of loans that lacked adequate underwriting, and cited the SRES lender
compensation plan as a cause of the poor loan quality. The SRES lender compensation
plan was solely based upon growth and lacked any consideration of the underlying
quality of the asset being booked. As a result, according to the examiners, lenders at
SRES originated an exorbitant number of loans that lacked adequate underwriting.

Credit Administration Practices

Examination reports noted credit administration weaknesses as a contributing factor in
the asset quality problems at each of the Security Banks. Common weaknesses reported
included:

Improper Use of Interest Reserves. Beginning in November 2007, examinations
reported that each of the banks allowed borrowers to continue using interest reserves,
despite problems with the project being financed (e.g., a delay or total cessation of the
project). This practice masked weaknesses in the ADC portfolio by showing credits as
current and performing. Loans would not be reported as delinquent or non-performing
until all interest reserves were depleted or the loan matured and the borrower did not have
the ability to make the interest payment. The banks also masked ADC delinquencies by
requiring interest-only payments for troubled ADC projects with extended repayment
terms.

Failure to Obtain Updated Appraisals. Each of the Security Banks was found to be in
contravention of Part 323 of the FDIC Rules and Regulations regarding appraisals. This
finding involved the failure of the banks to obtain updated appraisals on properties that
reflected current market conditions. Prior appraisals were found to be weak and
contained stale comparable information, particularly when considering current market
conditions. Prior evaluations also contained unrealistic absorption rates, holding periods,
sales prices, and discount rates. Other weaknesses noted included the failure to (1) obtain
new appraisals or evaluations prior to the renewal of construction or development
projects that were either stalled, or were completed but had not met their original sales
projections and (2) obtain new appraisals or evaluations despite significant changes in
market conditions.



                                            10
Lack of Property Inspections. The Security Banks’ ADC lending program did not
adequately ensure that loan disbursements and inspections were appropriately monitored
or documented. The Security Banks’ management did not require general contractors to
consistently provide invoices to support draw requests, and did not obtain lien waivers
from subcontractors to illustrate that the individual or company completed the assigned
project and that payment was received from the general contractor. Additionally,
although inspections were performed by third-party companies, they were not contracted
to review an assigned project as a whole, but rather review the current disbursement
requested to determine if the work had been completed for that specific draw. As a
result, management was unable to determine the degree of completion of an entire
project.

Reliance on Non-Core Funding

Liquidity management of the Security Banks was performed at the holding company
level and was heavily dependent on non-core funding sources such as brokered deposits
and Federal Home Loan Bank borrowings. In the years preceding their failure, the
Security Banks became increasingly dependent on non-core funding sources, particularly
brokered deposits, to fund growth in their loan portfolio and maintain adequate liquidity.
Table 6 provides details regarding the Security Banks’ non-core funding sources during
the years prior to their failure. When properly managed, such funding sources offer
important benefits, such as ready access to funding in national markets when core deposit
growth in local markets lags planned asset growth. However, non-core funding sources
also present potential risks, such as higher costs and increased volatility. According to
the DSC Risk Management Manual of Examination Policies, placing heavy reliance on
potentially volatile funding sources to support asset growth is risky because access to
these funds may become limited during distressed financial or economic conditions.
Under such circumstances, institutions could be required to sell assets at a loss in order to
fund deposit withdrawals and other liquidity needs.

Table 6: Security Banks’ Net Non-Core Funding Sources, 2006 to 2009
                                        Time Deposits                          Federal Home
                                        of $100,000 or          Brokered          Loan Bank
                      Total Deposits              More          Deposits         Borrowings
 Period Ending               ($000s)           ($000s)            ($000s)            ($000s)
March 2009                  2,138,344           870,464            641,522            163,510
December 2008               2,443,402         1,085,976            798,177            190,695
December 2007               2,302,700         1,042,540            678,028             77,200
December 2006               1,985,213           745,150            416,238             83,450
Source: UBPRs for the Security Banks.




                                             11
Table 7 illustrates the Security Banks’ net non-core funding dependence ratios5 between
December 2006 and the institutions’ failures. During this period, except for Houston, the
Security Banks’ net non-core funding dependence ratio was most often higher than its
peer group. Such rankings indicate that the institution’s potential volatile funding
dependence was higher than the average of the banks’ respective peer groups.

Table 7: Security Banks’ Net-Core Funding Dependence Ratio Compared to
         Peer Groups, 2006 to 2009
                       June 2009              Dec 2008              Dec 2007               Dec 2006
Bibb                     50.23                  52.71                 52.30                  39.41
Peer Group               30.90                  35.29                 29.31                  27.27
Gwinnett                  58.92                 55.31                  54.38                  44.23
Peer Group                27.63                 30.37                  26.18                  20.11
Houston                   16.65                 25.24                  17.57                  17.51
Peer Group                27.70                 30.37                  25.68                  17.85
Jones                     38.24                 37.63                  41.87                  25.02
Peer Group                27.70                 30.37                  25.68                  24.46
N. Fulton                 38.84                 30.03                  38.98                  39.88
Peer Group                27.63                 30.16                  26.18                  20.11
N. Metro                  50.68                 49.12                  58.36                  42.62
Peer Group                27.63                 30.16                  23.72                  24.85
Source: UBPRs for Security Banks.



The FDIC’s Supervision of the Security Banks

Recognizing that each bank’s supervisory history is unique, our conclusion regarding the
FDIC’s supervision of these institutions is the same. The FDIC and the DBF
examinations prior to 2007 identified the ADC concentrations but generally concluded
that the institutions were fundamentally sound. Further, examinations and Federal
Reserve inspections of the holding company did not identify any significant concerns
related to affiliate transactions. FDIC officials stated that prior to 2007, concerns
regarding the Security Banks’ high concentrations in ADC loans were mitigated by the
banks’ respective strong earnings and low levels of adversely classified assets.
Examiners, nevertheless, cautioned the Boards and management of the Security Banks to
be mindful of the inherent risks of the high ADC concentrations. In hindsight, examiners
could have been more emphatic in advising the banks’ Boards and management to
maintain strong risk management practices before 2007—prior to the economic
downturn—taking into consideration the following factors:




5
  The net non-core funding dependence ratio is a measure of the degree to which an institution relies on
non-core funding to support longer-term assets (e.g., loans that mature in more than 1 year). An elevated
ratio reflects heavy reliance on potentially volatile funding sources that may not be available in times of
financial stress.


                                                     12
•   the vulnerability of significant ADC concentrations to economic cycles,
•   the importance of strong underwriting and credit administration practices in order to
    mitigate the risk associated with the significant concentrations, and
•   growth that was being fueled by non-core funding sources.

Once problems were identified, the FDIC and the DBF pursued supervisory actions.
However, by the time those actions became effective, the financial condition of the banks
had become critically deficient.

Supervisory History

Our review focused on supervisory oversight from 2006 and 2009. Until 2009, the
examinations of the Security Banks were not conducted concurrently. FDIC officials
stated that it is a good practice to coordinate the timing of examinations for affiliated
banks, but not always practically possible. For example, in this case, the timing of SBC’s
bank acquisitions made it challenging for the FDIC to synchronize the banks’
examination cycles. Accordingly, absent supervisory concerns, such as those that existed
in 2009, the examination cycles were based on the date of the individual institution’s
charter. However, examiners covered relationships and transactions between the
affiliated banks during the individual bank examinations.

Except in one instance, the FDIC and the DBF conducted alternating examinations of the
Security Banks on a regular basis, as required, between 2006 and 2008.6 Examinations
conducted in 2009 were conducted jointly, except for the FDIC’s examination of
Houston. The banks were also subject to offsite monitoring. In the case of N. Metro,
there was a 22-month interval between the 2006 and 2008 on-site examinations. FDIC
officials stated that the N. Metro examination was delayed because of resource
constraints during that period. However, N. Metro received an interim visitation
9 months after the 2006 examination that confirmed the 2006 examination rating. Also,
the FDIC used Maximum Efficiency, Risk-focused, Institution Targeted (MERIT)
examination procedures7 during the 2006 examinations of Bibb and Gwinnett.

Prior to 2006, each of the Security Banks was considered a well-performing institution
and consistently received “1” or “2” CAMELS composite ratings.8 Regulators first

6
  Section 337.12 of the FDIC Rules and Regulations, which implements section 10(d) of the FDI Act,
requires annual full scope, on-site examinations of every state nonmember bank at least once every
12-month period and allows for 18-month intervals for certain small institutions (total assets of less than
$500 million) if certain conditions are satisfied. Houston, Jones, Gwinnett, N. Fulton, and N. Metro
qualified for the 18-month examination cycle.
7
  In 2002, DSC implemented MERIT guidelines to assist examiners in risk-focusing examination
procedures in institutions with lower risk profiles. Under this program, the loan penetration ratio range was
guided by the asset quality rating at the last examination. In March 2008, DSC eliminated MERIT
examination procedures.
8
  Financial institution regulators and examiners use the Uniform Financial Institutions Rating System
(UFIRS) to evaluate a bank’s performance in six components represented by the CAMELS acronym:
Capital adequacy, Asset quality, Management practices, Earnings performance, Liquidity position, and
Sensitivity to market risk. Each component, and an overall composite score, is assigned a rating of 1
through 5, with 1 having the least regulatory concern and 5 having the greatest concern.


                                                     13
observed a decline in the asset quality of the Security Banks in the June 30, 2007 offsite
monitoring reports of Bibb and Gwinnett. Also, during 2007 examinations ongoing at
other banks in Georgia not affiliated with the Security Banks, SRES-originated loans
were showing signs of weaknesses. As a result, the FDIC increased the budgeted hours
planned for the November 2007 Houston examination and accelerated its planned
examination of Bibb to the first quarter of 2008.

In November 2007, examiners assigned Houston a “3” CAMELS composite rating and
placed the bank under a Memorandum of Understanding (MOU) to address identified
weaknesses. The 2008 examinations conducted by the FDIC and the DBF identified
significant deterioration in all of the Security Banks and resulted in the pursuit of Cease
and Desist Orders (C&Ds) at each one, except N. Fulton.9 The FDIC notified Bibb
management that a C&D would be pursued in a letter dated December 19, 2008 that
transmitted the 2008 examination results. However, the C&Ds did not become effective
until April 2009 due to competing priorities resulting from problem banks in the Atlanta
Regional Office.

Although it took several months to finalize the C&Ds, DSC Atlanta Regional Office and
DBF officials were communicating with bank management during that timeframe, and
the banks were already attempting to address issues ultimately included in the C&Ds.
The C&Ds included provisions for bank management to reduce ADC concentrations and
correct underwriting and credit administration weaknesses, and take other steps necessary
to improve the banks’ asset quality, capital levels, and liquidity. Table 8 summarizes
the results of each of the examinations and visitations conducted from 2006 to 2009 and
related supervisory actions, if any.




9
 N. Fulton was subject to a Bank Board Resolution (BBR), an informal enforcement action, based on the
2008 DBF examination.


                                                  14
Table 8: Examinations and Visitations of the Security Banks, 2006 to 2009
                              As of                       Supervisory
   Bank       Start Date      Date         Agency           Ratings        Supervisory Action
 Bibb          05/01/06      03/31/06       FDIC            222122/2             None
               05/01/07      03/31/07       State           222121/2             None
               03/10/08      03/31/08       FDIC            344543/4         Proposed C&D
               03/23/09*     03/31/09       Joint           555555/5          C&D Issued
 Houston       05/22/06      03/31/06        State          222121/2               None
               11/13/07      09/30/07        FDIC           343332/3               MOU
               10/21/08      09/30/08        State          443433/4           Proposed C&D
               04/13/09*     03/31/09        FDIC           555544/5            C&D Issued
 Jones         01/03/06      09/30/05        FDIC           111122/1                None
               06/18/07      03/31/07        State          111122/1                None
               03/17/08      03/31/08        FDIC             N/A                   None
              (CRE Visit)
               11/24/08      09/30/08        Joint          443543/4           Proposed C&D
              (CRE Visit)
               04/13/09*     03/31/09        Joint          555555/5            C&D Issued
 Gwinnett      02/24/06      12/31/05        FDIC           222222/2               None
               04/16/07      12/31/06        State          122121/2               None
               05/05/08      06/30/08        FDIC           454544/5           Proposed C&D
               04/13/09*     03/31/09        Joint          555555/5            C&D Issued
 N. Metro      11/13/06      09/30/06        State          232222/2                None
               08/23/07      06/30/07        State          232322/2                None
               Visitation
               12/01/08      09/30/08        FDIC           554544/5           Proposed C&D
               03/23/09*     03/31/09        Joint          555555/5            C&D Issued
 N. Fulton     08/28/06      06/30/06        FDIC           212222/2              None
               03/31/08      12/31/07        State          232323/3           BBR Adopted
               04/13/09*     03/31/09        Joint          555555/5           PCA Directive
Source: FDIC ViSION system and ROEs for the Security Banks.
*Coordinated examinations were commenced at each of the Security Banks in 2009. While the banks were
closed prior to issuance of the final ROEs, results were communicated to the banks through examination
memorandums. Preliminary CAMELS ratings indicated a composite “5” was planned for each bank. As
discussed in the 2008 examinations, Capital continued to decline as a result of the extensive loan losses
incurred in the banks’ ADC lending portfolios.

Examination of Transactions with Affiliates

As noted in the Background section of the report, the Security Banks were considered to
be affiliates for purposes of Section 23A of the Federal Reserve Act. Due to the
commonality of ownership or management between financial institutions and affiliated
organizations, regulators recognize that transactions with affiliates may not be subject to
the same sort of objective analysis that exists in transactions between independent parties
due to the influence of common ownership or management between the parties. As such,
the respective examinations of the Security Banks were required to determine whether


                                                     15
each bank’s transactions with its affiliates were in regulatory compliance and not
detrimental to the safety and soundness of the financial institution. In this case,
understanding and evaluating the transactions and relationships among the banks,
including participations purchased from SRES, was important to evaluating the condition
of each of the banks.

Each FDIC examination report included a section on relationships with affiliates and the
holding company that contained financial data of the overall relationships, affiliated
transactions, and a description of the affiliated relationship in accordance with the FDI
Act and DSC examination procedures. In some examinations, violations related to
covered transactions with affiliates were reported; however, these violations were
corrected by bank management in the course of the examination and none required
further administrative action. DSC officials told us that although it was not required, in
hindsight, it may have been more efficient and effective to conduct the examinations of
the Security Banks on a consolidated basis. They suggested that this sort of examination
may have helped examiners obtain a more comprehensive understanding of the banks’
affiliated transactions and better identify operational weaknesses, including those related
to loan participations purchased from SRES.

Further, examiners reviewed annual Federal Reserve Bank (FRB) Inspection Reports of
SBC from 2006 to 2008. The inspection reports provide an assessment of the financial
condition of SBC similar to the individual bank examinations conducted by the FDIC and
the DBF. The inspection reports also include coverage of intercompany transactions.
None of the FRB inspection reports noted serious concerns with intercompany
transactions.

Supervisory Concerns Related to ADC Concentrations

Examiners consistently identified that the Security Banks’ loan portfolios included
concentrations in ADC lending and noted that the concentrations warranted continued
monitoring by management. Examiners did not downgrade the institutions’ capital or
management ratings or issue enforcement actions for the banks to reduce these
concentrations until after the economic downturn began affecting asset quality. Based on
our review of examinations conducted in 2006 and early 2007, and discussions with
examiners, supervisory concern about the level of concentrations was generally not
warranted for a number of reasons: (1) the apparent strong protection of collateral;
(2) low levels of classified assets; (3) management involvement; (4) strong capital levels;
and (5) effective programs to measure, monitor, and control the inherent risks in the
banks’ highly concentrated ADC lending. However, the 2006 N. Metro examination
reported that ADC monitoring needed improvement.

The 2007 examinations identified ADC concentrations at levels above those described in
the Interagency Guidance on CRE lending that may require a greater level of supervisory
oversight. Specifically, as discussed earlier in the report, the guidance states that an
institution may be identified for further supervisory analysis of the level and nature of the
risk if it has experienced rapid growth in CRE lending, has notable exposure to a specific
type of CRE, or is approaching or exceeds the following supervisory criteria: (1) total

                                             16
reported loans for construction, land development, and other land (ADC) representing
100 percent or more of the institution’s total capital or (2) total commercial real estate
loans representing 300 percent or more of the institution’s total capital and the
outstanding balance of the institution’s CRE loan portfolio has increased 50 percent or
more during the prior 36 months. Table 9 shows that all of the Security Banks had ADC
concentrations significantly above the CRE guidance and well above peer banks as of
March 31, 2007.

Table 9: Security Banks’ ADC Loans to Total Capital as of March 31, 2007
            Bank Name                      Bank                         Peer
Bibb                                       486.69                      137.18
Gwinnett                                   649.77                      149.91
Houston                                    417.81                      104.26
Jones                                      284.71                      120.90
N. Fulton                                  272.51                      149.91
N. Metro                                   474.46                      105.35
Source: UBPR for the Security Banks.

These high ADC concentration levels, coupled with the poor underwriting that was
uncovered during the late 2007 and 2008 examinations, left the banks vulnerable to the
real estate market decline, and the FDIC and the DBF began to initiate supervisory
actions. However, asset quality began to rapidly deteriorate and by the time the
supervisory actions were effective, the financial conditions of the banks were critically
deficient.

Supervisory Concerns Related to Loan Underwriting and Credit Administration

With the exception of the N. Metro examination conducted in November 2006, the 2006
examinations reported that underwriting and credit administration practices at the
Security Banks were satisfactory. The 2006 N. Metro examination cited the bank for
contraventions of policy related to appraisal practices and loan-to-value limits. As
discussed earlier in this report, MERIT examination procedures were used for the 2006
examinations of Bibb and Jones. Consistent with these procedures, examiners reviewed
30 percent and 17 percent of the loan portfolios, respectively. DSC officials told us that
the use of MERIT procedures during the 2006 examinations did not impact their
assessment of the Bibb and Jones loan portfolios because adversely classified assets were
low and problems with the loan underwriting and credit administration practices had not
yet materialized.

Of the four examinations conducted at the Security Banks in 2007 (Bibb, Gwinnett,
Jones, and Houston), three reported that although a concentration in ADC lending
existed, bank management was adequately monitoring the concentration and no
weaknesses were reported related to loan underwriting or credit administration practices.
However, the Houston examination, conducted later in the year (November 2007) than
the other 2007 Security Bank examinations, identified weaknesses in loan underwriting.




                                            17
Loan underwriting and credit administration weaknesses were consistently reported
during examinations at each of the Security Banks in 2008. For example, examiners
concluded in the 2008 Gwinnett examination that loan deterioration was primarily the
result of (1) liberal loan underwriting and credit administration practices associated with
uncontrolled ADC lending, (2) a lack of appropriate safeguards, and (3) a downturn in the
economy. Similarly, the 2008 Bibb examination concluded that loan deterioration was
primarily the result of (1) deficient underwriting and loan administration practices,
(2) significant lending outside of the geographic area, (3) poor controls over volume-
based compensation packages of SRES executives, and (4) the subsequent decline in the
real estate market. Although the SRES lending function was included in the scope of
each Bibb examination, no significant weaknesses were reported related to SRES during
the Bibb examinations until 2008.

Absent the identification of significant underwriting problems prior to 2008, the
examiners’ ratings and approach to the banks’ practices in this area and overall risk
profiles were consistent with prevailing guidance and practices at the time. However, the
FDIC’s examination procedures caution that banks may compromise sound credit
principles in a highly competitive market similar to what existed in the Atlanta
metropolitan area during 2006 and 2007. In that regard, going forward, it would be
prudent for examiners to place earlier and greater emphasis on the significance of
sustaining proper underwriting in examination reports when high concentrations elevate a
bank’s risk profile.

Supervisory Concerns Related to Non-Core Funding

During the 2006 to 2008 examinations, examiners noted the heavy use of brokered
deposits as a funding source but concluded that the risk of the Security Banks’ heavy
dependence on non-core funding sources was mitigated, in part, by a well-developed
funds management process and SBC’s Asset Liability Management Committee that was
actively engaged in monitoring and measuring liquidity. By the 2008 examinations,
however, regulators had determined that liquidity was less than satisfactory. As of
December 31, 2008, 32.66 percent of the institutions’ deposit base consisted of brokered
deposits (up from 20.97 percent as of December 31, 2006).

FDIC’s Rules and Regulations Part 337, Unsafe and Unsound Banking Practices, states
that any Well Capitalized insured depository institution may solicit and accept, renew, or
roll over any brokered deposits without restriction. Under FDIC’s Rules and
Regulations, restrictions on brokered deposits are imposed when an institution falls below
Well Capitalized.10 As a result of declining capital levels, the institutions became subject
to certain restrictions related to brokered deposits, including the prohibition on the
acceptance, renewal, or roll-over of brokered deposits without a waiver from the FDIC.
This restriction was applicable to Houston, Gwinnett, and N. Metro. Bibb was restricted
in increasing the amount of its brokered deposits above its current amount outstanding as

10
  Under Part 337, Undercapitalized and Adequately Capitalized institutions are prohibited from obtaining
or rolling over brokered deposits; however, Adequately Capitalized institutions may request a waiver of the
prohibition.


                                                    18
of the C&D’s effective date. N. Fulton consented in its BBR to decrease its reliance on
brokered deposits.

By 2009, regulators determined that the Security Banks’ liquidity position had become
critically deficient. By that time, the institutions’ access to external funding sources was
limited and their earnings were not sufficient to augment capital, straining liquidity.

Implementation of PCA

The purpose of PCA is to resolve problems of insured depository institutions at the least
possible long-term cost to the DIF. Part 325 of the FDIC’s Rules and Regulations
implements the requirements of PCA by establishing a framework of restrictions and
mandatory supervisory actions that are triggered by an institution’s capital levels. Based
on the supervisory actions taken with respect to the Security Banks, the FDIC properly
implemented applicable PCA provisions of section 38. However, PCA’s effectiveness in
mitigating losses to the DIF was limited because PCA did not require action until the
institutions were at serious risk of failure.

In the case of the Security Banks, capital was a lagging indicator of the institutions’
financial health. At the time of the banks’ 2008 examinations, four of the six Security
Banks were considered Well or Adequately Capitalized for PCA purposes. However,
examiners concluded that the overall financial conditions of the institutions had
deteriorated significantly and weakened to a point where viability was threatened. Table
10 illustrates the Security Banks’ capital levels relative to the PCA thresholds for Well
Capitalized institutions as of the 2008 examinations and visitation.

Table 10: Security Banks’ Capital Levels Relative to PCA Thresholds for
          Well Capitalized Institutions
           Bank/                 Tier 1         Tier 1 Risk-     Total Risk-                Capital
    Examination Date            Leverage           Based           Based                 Classification
Threshold for Well
Capitalized Institutions           ≥ 5%             ≥ 6%            ≥ 10%
Bibb/March 2008                    8.00             9.04             9.44        Adequately Capitalized
Gwinnett/May 2008                  3.43             4.51             5.80        Significantly Undercapitalized
Houston/October 2008               6.67             9.27            10.36        Well Capitalized
Jones/November 2008                                  Not
Visitation                          5.52          Provided           10.18       Well Capitalized
N. Fulton/March 2008
                                    8.98             9.33            10.51       Well Capitalized
N. Metro/December 2008              4.74             5.76            7.03        Undercapitalized
Source: OIG analysis of results of ROEs and visitations and section 38 of the FDI Act.

Based on the results of the 2008 examinations and visitation, the FDIC and the DBF
issued joint C&Ds to all of the Security Banks except N. Fulton that included, among
other things, a capital provision. The capital provision of the C&D directed these five
banks to increase and maintain a Tier 1 Leverage Capital ratio of 8 percent – an amount



                                                    19
that is greater than required by PCA for Well Capitalized institutions. In 2009, the FDIC
issued a PCA directive to N. Fulton because it had not been subjected to the C&D.

Based on the FDIC’s analysis of the Security Banks’ Call Reports and the results of 2009
examinations, the FDIC and the DBF determined that the quality of the Security Banks’
assets had deteriorated to the point that the institutions were either Undercapitalized or
Critically Undercapitalized for PCA purposes. Table 11 illustrates the significant decline
in the Security Banks’ capital levels between 2008 and 2009.

Table 11: Security Banks’ Decline in Capital Levels Between 2008 and 2009
          in Examinations and/or Visitations
Bank/Exam                           Tier 1 Leverage Tier 1 Risk-Based Total Risk-Based
Bibb/March 2008                             8.00                     9.04                     9.44
Bibb/March 2009                             1.82                     2.29                     3.57
Gwinnett/May 2008                           3.43                     4.51                      5.80
Gwinnett/April 2009                        (3.96)                   (5.43)                    (5.43)
Houston/October 2008                        6.67                     9.27                     10.36
Houston/April 2009                          4.08                     7.02                      8.28
Jones/November 2008 Visitation              5.52                Not Provided                  10.18
Jones/April 2009                            4.13                    6.63                      7.88
N. Fulton/March 2008                        8.98                     9.33                     10.51
N. Fulton/April 2009                        1.50                     2.48                     3.79
N. Metro/December 2008                      4.74                     5.76                      7.03
N. Metro/March 2009                        (0.25)                   (0.35)                    (0.35)
Source: OIG analysis of results of ROEs and visitations.

SBC had submitted an application for the Troubled Asset Relief Program (TARP)11 on
October 27, 2008 for funding of $65 million. SBC subsequently withdrew its application
in April 2009. The Security Banks were unsuccessful in other efforts to raise needed
capital and were subsequently closed on July 24, 2009.




11
  TARP was established under the Emergency Economic Stabilization Act of 2008. The Act established
the Office of Financial Stability within the Department of the Treasury. Under TARP, Treasury will
purchase up to $250 billion of preferred shares from qualifying institutions as part of the Capital Purchase
Program.


                                                     20
Corporation Comments
After we issued our draft report, management provided additional information for our
consideration, and we revised our report to reflect this information, as appropriate. On
February 12, 2010, the Director, DSC provided a written response to the draft report.
That response is provided in its entirety as Appendix 4 of this report. DSC’s response
reiterates the OIG’s conclusions regarding the causes of failures and describes market
conditions prior to the economic downturn that led Atlanta-area financial institutions to
increase ADC lending to unprecedented levels and encouraged out-of-area institutions to
begin lending in the marketplace.

With respect to our assessment of the FDIC’s supervision of the Security Banks, DSC’s
response also reiterated the supervisory actions taken with regard to the ADC
concentrations presented in the report, including examiners encouraging the banks to
implement stronger risk management practices. The response indicates, however, that in
DSC’s view, the extent of the ADC concentration at the Security Banks, together with the
sudden collapse of demand for vacant building lots, resulted in a situation that could not
have been overcome by even the strongest risk management practices.

Finally, DSC’s response describes supervisory guidance issued in 2006 and 2008 that re-
emphasizes the importance of robust credit risk-management practices and sets broad
supervisory expectations, in recognition that strong supervisory attention is necessary for
institutions with high CRE/ADC concentrations and volatile funding sources.




                                            21
                                                                               Appendix 1

                     Objectives, Scope, and Methodology

Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, which
provides, in general, that if a deposit insurance fund incurs a material loss with respect to
an insured depository institution, the Inspector General of the appropriate federal banking
agency shall prepare a report to that agency, reviewing the agency’s supervision of the
institution. The FDI Act requires that the report be completed within 6 months after it
becomes apparent that a material loss has been incurred.

Our audit objectives were to (1) determine the causes of the Security Banks’ failures and
the resulting material losses to the DIF and (2) evaluate the FDIC’s supervision of the
Security Banks, including the FDIC’s implementation of the PCA provisions of section
38 of the FDI Act.

We conducted this performance audit from October 2009 to February 2009 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.


Scope and Methodology

The scope of this audit included an analysis of the Security Banks’ operations from 2006
until their failures on July 24, 2009. Our review also entailed an evaluation of the
regulatory supervision of the institutions over the same period.

To accomplish the objectives, we performed the following procedures and techniques:

     •   Analyzed examination reports prepared by the FDIC and the DBF from 2006
         through 2009.

     •   Reviewed the following:

           •   Bank data and correspondence received from DSC’s Regional Office and the
               Atlanta and Albany, Georgia Field Offices.

           •   Reports prepared by the Division of Resolutions and Receiverships (DRR)
               and DSC relating to the banks’ closures. We also reviewed records
               maintained by DRR for information that would provide insight into the
               banks’ failures.

           •   Pertinent FDIC policies and procedures.


                                             22
                                                                                  Appendix 1

                       Objectives, Scope, and Methodology


   •       Interviewed the following FDIC officials:

             •   DSC management from the Washington, D.C. and Atlanta Regional Offices.

             •   DSC examiners from the Atlanta and Albany, Georgia Field Offices.

             •   DRR personnel from the Dallas Regional Office.

       •   Interviewed DBF officials to discuss the historical perspective of the institutions,
           DBF examinations, and other activities related to the state’s supervision of the
           institutions.


Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports, ROEs,
and interviews of examiners to understand the Security Banks’ management controls
pertaining to causes of failures and material losses as discussed in the body of this report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including examination reports, correspondence files, and
testimonial evidence to corroborate data obtained from systems that were used to support
our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act. The results of our tests were discussed,
where appropriate, in the report. Additionally, we assessed the risk of fraud and abuse
related to our objectives in the course of evaluating audit evidence.




                                                23
                                                                                  Appendix 2

                               Glossary of Terms

Term                Definition
Adversely           Assets subject to criticism and/or comment in an examination report.
Classified Assets   Adversely classified assets are allocated on the basis of risk (lowest to
                    highest) into three categories: Substandard, Doubtful, and Loss.

Bank Board          Informal commitments adopted by a financial institution’s Board
Resolution (BBR)    directing the institution’s personnel to take corrective action regarding
                    specific noted deficiencies.
Call Report         The report filed by a bank pursuant to 12 U.S.C. 1817(a)(1), which
                    requires each insured State nonmember bank and each foreign bank
                    having an insured branch which is not a Federal branch to make to the
                    Corporation reports of condition in a form and shall containing such
                    information as the Board of Directors may require. These reports are
                    used to calculate deposit insurance assessments and monitor the
                    condition, performance, and risk profile of individual banks and the
                    banking industry.
Cease and Desist    A C&D is a formal enforcement action issued by a financial institution
Order (C&D)         regulator to a bank or affiliated party to stop an unsafe or unsound
                    practice or a violation of laws and regulations. A C&D may be
                    terminated when the bank’s condition has significantly improved and the
                    action is no longer needed or the bank has materially complied with its
                    terms.
Concentration       A concentration is a significantly large volume of economically related
                    assets that an institution has advanced or committed to a certain industry,
                    person, entity, or affiliated group. These assets may, in the aggregate,
                    present a substantial risk to the safety and soundness of the institution.
Memorandum of       An informal corrective administrative action for institutions considered
Understanding       to be of supervisory concern, but which have not deteriorated to the
(MOU)               point where they warrant formal administrative action. As a general
                    rule, an MOU is to be considered for all institutions rated a composite 3.
Prompt              The purpose of PCA is to resolve the problems of insured depository
Corrective Action   institutions at the least possible long-term cost to the DIF. Part 325,
(PCA)               subpart B, of the FDIC Rules and Regulations, 12 Code of Federal
                    Regulations, section 325.101, et. seq, implements section 38, Prompt
                    Corrective Action, of the FDI Act, 12 United States Code section
                    1831(o), by establishing a framework for taking prompt supervisory
                    actions against insured nonmember banks that are less than adequately
                    capitalized. The following terms are used to describe capital adequacy:
                    (1) Well Capitalized, (2) Adequately Capitalized, (3) Undercapitalized,
                    (4) Significantly Undercapitalized, and (5) Critically Undercapitalized.

                    A PCA Directive is a formal enforcement action seeking corrective
                    action of compliance with the PCA statute with respect to an institution
                    that falls within any of the three categories of undercapitalized
                    institutions.


                                             24
                                                                              Appendix 2

                            Glossary of Terms


Troubled Asset   TARP is a program of the United States Treasury Department to
Relief Program   purchase assets and equity from financial institutions to strengthen the
(TARP)           financial sector.

Uniform Bank     The UBPR is an individual analysis of financial institution financial data
Performance      and ratios that includes extensive comparisons to peer group
Report (UBPR)    performance. The report is produced by the Federal Financial
                 Institutions Examination Council for the use of banking supervisors,
                 bankers, and the general public and is produced quarterly from data
                 reported in Reports of Condition and Income submitted by banks.




                                         25
                                                                        Appendix 3

                              Acronyms

ADC      Acquisition, Development, and Construction
BBR      Bank Board Resolution
C&D      Cease and Desist Order
CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity, and
         Sensitivity to Market Risk
CRE      Commercial Real Estate
DBF      Department of Banking and Finance
DIF      Deposit Insurance Fund
DRR      Division of Resolutions and Receiverships
DSC      Division of Supervision and Consumer Protection
FDI      Federal Deposit Insurance
FIL      Financial Institution Letter
FRB      Federal Reserve Bank
LTV      Loan-to-Value
MERIT    Maximum Efficiency, Risk-focused, Institution Targeted
MOU      Memorandum of Understanding
OIG      Office of Inspector General
PCA      Prompt Corrective Action
ROE      Report of Examination
SBC      Security Bank Corporation
SRES     Security Real Estate Services
TARP     Troubled Asset Relief Program
UBPR     Uniform Bank Performance Report
UFIRS    Uniform Financial Institutions Rating System




                                     26
                                                                                 Appendix 4
                                     Corporation Comments




Federal Deposit Insurance Corporation
 550 17th Street NW, Washington, D.C. 20429-9990               Division of Supervision and Consumer Protection


TO:                Stephen Beard
                   Assistant Inspector General for Material Loss Reviews

                           /Signed/
FROM:              Sandra L. Thompson
                   Director

SUBJECT:           Draft Audit Report Entitled, Material Loss Review of the Six Bank Subsidiaries of
                   Security Bank Corporation, Macon, Georgia (Assignment No. 2009-067)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act (FDI Act), the Federal Deposit
Insurance Corporation’s Office of Inspector General (OIG) conducted a material loss review of the six
bank subsidiaries (Security Banks) of Security Bank Corporation (SBC) which failed on July 24,
2009. This memorandum is the response of the Division of Supervision and Consumer Protection
(DSC) to the OIG’s Draft Report (Report) received on January 25, 2010.

The Report concludes that the Security Banks failed because of the strategy promoted by SBC, and
followed by each of the Security Banks’ boards and management, to pursue aggressive growth
centered in acquisition, development, and construction (ADC) lending. Further, SCB’s expansion into
the Atlanta metropolitan market was ill-timed, as it occurred at the peak of the real estate market.
Although the Security Banks’ aggressive growth was initially profitable, weaknesses in Board and
management oversight related to loan underwriting and risk management practices were exposed as
the economy contracted. The Security Banks’ strategy of relying on wholesale funding, such as
brokered deposits, was unsustainable once its financial condition began to deteriorate. Ultimately, the
Security Banks’ capital and liquidity became strained.

The Report indicates that examiners cautioned the Board of Directors and management of the Security
Banks of the inherent risks associated with high ADC concentrations, and encouraged stronger risk
management practices. However, the level of the ADC concentration at the Security Banks at the time
of the sudden collapse of demand for vacant building lots resulted in a situation that could not have
been overcome by even the strongest risk management practices.

At the time of the economic downturn, financial institutions in the Atlanta metropolitan market had
experienced more than 20 years of profitable ADC lending at concentration levels higher than the
national average due to some of the strongest population growth in the country. The availability of
subprime and nontraditional mortgage credit inflated housing demand between 2002 and 2007, which
led Atlanta-area financial institutions to increase ADC lending to unprecedented levels and encouraged
out-of-area institutions to begin lending in the marketplace.

In recognition that strong supervisory attention is necessary for institutions with high CRE/ADC
concentrations and volatile funding sources, DSC issued Interagency Guidance on CRE Monitoring in
2006 and a Financial Institution Letter to banks on Managing Commercial Real Estate Concentrations
in a Challenging Environment in 2008 to re-emphasize the importance of robust credit risk-
management practices and set forth broad supervisory expectations. Thank you for the opportunity to
review and comment on the Report.

                                                   27
